SCHOOL OF LAW
THE UNIVERSITY OF TEXAS AT AUSTIN
727 East Dean Keeton Street | Austin, Texas 78705-3299 | (512) 475-9198 | svladeck@law.utexas.edu
STEPHEN I. VLADECK
A. Dalton Cross Professor in Law

December 17, 2019
Hon. Scott S. Harris
Clerk, Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

United States v. Briggs, No. 19-108
United States v. Collins, No. 19-184

Dear Mr. Harris,
Pursuant to Rule 37.3, the three Respondents in the abovecaptioned cases hereby provide their blanket consent to the filing of
amicus briefs in support of either party or neither party.
If the Court has any questions concerning the above, please do
not hesitate to let me know.
Sincerely yours,
Stephen I. Vladeck
cc: Hon. Noel Francisco
Counsel of Record for Petitioner
Mr. David P. Sheldon, Esq.
Counsel of Record for Respondent Daniels

